uourtH Mppeai; t.v-f 100

uuo: i i

rneu: i i/uo/^u^u

ry. i ui ^

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7158

DARRIS ALTONY NEWSOME,
Petitioner - Appellant,
v.
HAROLD CLARKE,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Liam O’Grady, Senior District Judge. (l:20-cv-00781-LO-JFA)

Submitted: October 16, 2020

Decided: November 3, 2020

Before NIEMEYER, HARRIS, and QUATTLEBAUM, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Darris Altony Newsome, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

Mppeai: zu-/ 100

uou: i i

rneu: i i/uo/zuzu

ry: z ui z

PER CURIAM:
Darris Altony Newsome seeks to appeal the district court’s order dismissing his 28
U.S.C. § 2254 petition without prejudice as unauthorized and successive. The order is not
appealable unless a circuit justice or judge issues a certificate of appealability. See 28
U.S.C. § 2253(c)(1)(A). A certificate of appealability will not issue absent “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When, as here,
the district court denies relief on procedural grounds, the prisoner must demonstrate both
that the dispositive procedural ruling is debatable and that the petition states a debatable
claim of the denial of a constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41
(2012) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Newsome has not
made the requisite showing. Accordingly, we deny Newsome’s motion for a certificate of
appealability, deny his motion for an evidentiary hearing, and dismiss the appeal. We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
DISMISSED

2

